1200 New Hampshire Ave. NW, Suite 700
BECKET ee
202-955-0095 / YW @BecketLaw

Religious Liberty for All wow beckstlaw ong

January 27, 2020
By Hand Delivery and Electronic Filing

Honorable Scott S. Harris

Clerk of the Court

Supreme Court of the United States
1 First Street, N.E.

Washington, DC 20543-0001

Re: Our Lady of Guadalupe School v. Morrissey-Berru, No. 19-267
St. James School v. Biel, No. 19-348

Dear Mr. Harris:
On behalf of petitioners in the above-captioned consolidated appeals, I hereby
consent to the filing of any briefs amici curiae in support of either party or of neither

party, filed within the time allowed by this Court’s rules.

Sincerely,

Ye. a p> babe
Eric C. Rassbach
erassbach@becketlaw.org
Counsel for Petitioners

cc: Counsel of Record
